PRICING INFORMATION FOR THE COMMERCE BANK SECURED VISA CREDIT CARD
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases
This APR will vary with the market based on the Prime Rate.
APR for Balance Transfers
Prime Rate plus 14.99%
This APR will vary with the market based on the Prime Rate
APR for Cash Advances
Prime Rate plus 21.99% for Non-Overdraft Cash Advances.
(Non-Overdraft & Overdraft)
Prime Rate plus 21.99% for Overdraft Cash Advances.
These APRs will vary with the market based on the Prime Rate.
How to Avoid Paying Interest Your due date is at least 25 days after the close of each billing cycle. We will not
on Purchases
charge you any interest on Purchases if you pay the entire balance by the due date
each month. We will begin charging interest on Cash Advances and Balance Transfers
on the transaction date.
Minimum Interest Charge
If you are charged interest, the charge will be no less than $2.50.
For Credit Card Tips from
To learn more about factors to consider when applying for or using a credit card,
the Consumer Financial
visit the website of the Consumer Financial Protection Bureau at
Protection Bureau
http://www.consumerfinance.gov/learnmore

Prime Rate plus 14.99%

Fees
Set-up and Maintenance
Fees
- Annual Fee

$49

Transaction Fees
- Balance Transfer

None

- Non-Overdraft
Cash Advance
- Overdraft Cash Advance

None

- Foreign Transaction

1% of each transaction in U.S. Dollars. 2% of each transaction made in currencies other
than U.S. Dollars.
Up to 20% of each qualifying transaction(s) made using an Installment Plan. Each
Installment Plan Fee will be disclosed prior to establishing the Installment Plan.

Installment Plan Fee
Penalty Fees
- Late Payment

- Returned Payment

None

$5 if your minimum payment due is less than or equal to $25;
$15 if your minimum payment due is more than $25
$25

How We Will Calculate Your Balance: We use a method called “Daily Balance” (including new Purchases and Fees).
Prime Rate: The Prime Rate used to determine the APR on your Account is the U.S. Prime Rate published in The Wall
Street Journal in its column called “Money Rates” on the last business day of each month. Although each Daily Periodic
Rate is determined by an index published prior to the first day of each calendar month, the respective Daily Periodic Rate
will only become effective and charged as of the first day of the monthly billing period following the respective calendar
month in which the index is so published. No representation is made that the U.S. Prime Rate is the lowest, the best or
the favored rate of interest. If for any reason The Wall Street Journal no longer publishes the “Money Rates” column, then
we will choose a new index based on comparable information. An increase in the Prime Rate will cause your interest rate
to increase and may cause your minimum monthly payment to increase.
Daily Periodic Rate: The Daily Periodic Rate for all APRs equals the APR divided by 365.

© 2020 Commerce Bancshares, Inc.

